HHS/OIG, Audit -"Review of the Saint Francis Hospitals Controls to Ensure Accuracy
of Wage Data Used for Calculating Inpatient Prospective Payment System Wage Indexes,"(A-02-05-01004)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Saint Francis Hospitals Controls to Ensure Accuracy
of Wage Data Used for Calculating Inpatient Prospective Payment System Wage Indexes," (A-02-05-01004)
April 25, 2006
Complete
Text of Report is available in PDF format (428 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Saint Francis Hospital (the hospital)
complied with Medicare requirements for reporting wage data in its fiscal year (FY) 2003
Medicare cost report.  The hospital did not fully comply with Medicare requirements
for reporting wage data in its FY 2003 Medicare cost report.  The hospital overstated
its salaries by $310,562 and understated its hours by 10,940.
We recommended that the hospital (1) submit a revised FY 2003 Medicare cost report to the
fiscal intermediary and (2) implement review and reconciliation procedures to ensure that
the wage data reported on future Medicare cost reports are accurate, supportable, and in
compliance with Medicare requirements.  The hospital concurred with four of our findings,
but disagreed with our finding on unfunded pension and postretirement benefit costs.